<html>
<title> - MERIDA PART TWO: INSURGENCY AND TERRORISM IN MEXICO</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
          MERIDA PART TWO: INSURGENCY AND TERRORISM IN MEXICO

=======================================================================


                             JOINT HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON

                         THE WESTERN HEMISPHERE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS

                        HOUSE OF REPRESENTATIVES

                                AND THE

                       SUBCOMMITTEE ON OVERSIGHT,

                     INVESTIGATIONS, AND MANAGEMENT

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 4, 2011

                               __________

                Serial No. 112-108     Serial No. 112-48

       (Foreign Affairs Committee)   (Homeland Security Committee)

                               __________

    Printed for the use of the Committee on Foreign Affairs and the
                     Committee on Homeland Security


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/
                     and http://www.gpo.gov/fdsys/




                  U.S. GOVERNMENT PRINTING OFFICE
70-582                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                                 ______


                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
VACANT
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

                 Subcommittee on the Western Hemisphere

                     CONNIE MACK, Florida, Chairman
MICHAEL T. McCAUL, Texas             ELIOT L. ENGEL, New York
JEAN SCHMIDT, Ohio                   ALBIO SIRES, New Jersey
DAVID RIVERA, Florida                ENI F.H. FALEOMAVAEGA, American 
CHRISTOPHER H. SMITH, New Jersey         Samoa
ELTON GALLEGLY, California           DONALD M. PAYNE, New Jersey
                     COMMITTEE ON HOMELAND SECURITY

                   PETER T. KING, New York, Chairman
LAMAR SMITH, Texas                   BENNIE G. THOMPSON, Mississippi
DANIEL E. LUNGREN, California        LORETTA SANCHEZ, California
MIKE ROGERS, Alabama                 SHEILA JACKSON LEE, Texas
MICHAEL T. McCAUL, Texas             HENRY CUELLAR, Texas
GUS M. BILIRAKIS, Florida            YVETTE D. CLARKE, New York
PAUL C. BROUN, Georgia               LAURA RICHARDSON, California
CANDICE S. MILLER, Michigan          DANNY K. DAVIS, Illinois
TIM WALBERG, Michigan                BRIAN HIGGINS, New York
CHIP CRAVAACK, Minnesota             JACKIE SPEIER, California
JOE WALSH, Illinois                  CEDRIC L. RICHMOND, Louisiana
PATRICK MEEHAN, Pennsylvania         HANSEN CLARKE, Michigan
BEN QUAYLE, Arizona                  WILLIAM R. KEATING, Massachusetts
SCOTT RIGELL, Virginia               KATHLEEN C. HOCHUL, New York
BILLY LONG, Missouri                 JANICE HAHN, California
JEFF DUNCAN, South Carolina
TOM MARINO, Pennsylvania
BLAKE FARENTHOLD, Texas
ROBERT L. TURNER, New York
           Michael J. Russell, Staff Director & Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

       SUBCOMMITTEE ON OVERSIGHT, INVESTIGATIONS, AND MANAGEMENT

                   MICHAEL T. MCCAUL, Texas, Chairman
GUS M. BILIRAKIS, Florida            WILLIAM R. KEATING, Massachusetts
BILLY LONG, Missouri, Vice Chair     YVETTE D. CLARKE, New York
JEFF DUNCAN, South Carolina          DANNY K. DAVIS, Illinois
TOM MARINO, Pennsylvania             BENNIE G. THOMPSON, Mississippi 
PETER T. KING, New York (Ex              (Ex Officio)
    Officio)
                  Dr. R. Nick Palarino, Staff Director
                        Diana R. Bergwin, Clerk
              Tamla Scott, Minority Subcommittee Director

                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable William R. Brownfield, Assistant Secretary, Bureau 
  of International Narcotics and Law Enforcement Affairs, U.S 
  Department of State............................................     8
Mr. Rodney G. Benson, Assistant Administrator, Chief of 
  Intelligence, Drug Enforcement Administration, U.S. Department 
  of Justice.....................................................    14
Ms. Mariko Silver, Acting Assistant Secretary, Office of 
  International Affairs, U.S. Department of Homeland Security....    29

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable William R. Brownfield: Prepared statement..........    10
Mr. Rodney G. Benson: Prepared statement.........................    16
Ms. Mariko Silver: Prepared statement............................    31

                                APPENDIX

Hearing notice...................................................    64
Hearing minutes..................................................    65
The Honorable Connie Mack, a Representative in Congress from the 
  State of Florida, and chairman, Subcommittee on the Western 
  Hemisphere:
  Prepared statement.............................................    66
  Material submitted for the record..............................    68
The Honorable Michael T. McCaul, a Representative in Congress 
  from the State of Texas: Material submitted for the record.....    75


          MERIDA PART TWO: INSURGENCY AND TERRORISM IN MEXICO

                              ----------                              


                        TUESDAY, OCTOBER 4, 2011

                        House of Representatives,          
            Subcommittee on the Western Hemisphere,        
                Committee on Foreign Affairs, and the      
             Subcommittee on Oversight, Investigations,    
                                          and Management,  
                             Committee on Homeland Security
                                                    Washington, DC.
    The committees met, pursuant to notice, at 2 o'clock p.m., 
in room 2172 Rayburn House Office Building, Hon. Connie Mack 
[chairman of the Subcommittee on the Western Hemisphere] 
presiding.
    Mr. Mack. The committee will come to order.
    I'd first like to start by asking unanimous consent that 
the gentleman from Texas, Mr. Cuellar, be allowed to sit in 
today's hearing. Without objection, so ordered.
    That was a close call, Mr. Cuellar. That was a close call.
    I first want to thank everyone, especially our witnesses, 
for joining us today. After recognizing myself and the ranking 
member, Mr. Engel, for 5 minutes each for our opening 
statements, Chairman McCaul and Ranking Member Keating for 5 
minutes each for their opening statement, we will proceed 
directly to hearing testimony from our distinguished witnesses. 
The full text of their written statements will be inserted into 
the record. Without objection, members may have 5 days to 
submit statements and questions for the record.
    After we hear from our witnesses, individual members will 
be recognized for 5 minutes each for questions.
    And I now recognize myself 5 minutes for my opening 
statement.
    Two weeks ago, four expert witnesses testified in this 
hearing room. Two experts explained that an insurgency is 
raging along our southern border. The other two focused on the 
fact that violence and crime in Mexico has taken a unique turn 
and the U.S. response has not followed. All agree that the 
situation has evolved and fragmented into violent criminal 
control over parts of Mexico.
    It is clear that today Mexico represents a unique situation 
requiring the development of its own specific classification to 
successfully combat the authority of this expanding criminal 
control. Today I will continue to make the case that Mexico is 
facing a criminal insurgency.
    The attack on the state are clear. The criminal 
organizations are capturing the allegiance of the population 
through economic and social programs and as they undermine 
institutions, they have no desire to replace them. This makes 
the insurgency in Mexico more of a threat to democratic 
governance then we have seen in any other insurgency scenarios. 
Furthermore, these transnational criminal organizations are 
employing increasingly gruesome terrorist tactics to carry out 
their threats.
    The potential threat of criminal organizations controlling 
our southern border creates grave national security and 
economic implications for the United States. That is why in 
2007 the United States began funding the Merida Initiative to 
improve the situation in Mexico. Unfortunately, we face more 
extreme threats and violence from our border region today than 
we did 4 years ago.
    The Merida Initiative has been successful in two areas: 
First, establishing deeper cooperation between the United 
States and Mexico, and that is clear; and two, removing major 
drug kingpins in accordance with the goals of the Mexican 
Government.
    Unfortunately, the game has changed. The reality in Mexico 
is that U.S. assistance has lagged while the traditional 
cartels evolve into diversified transnational criminal 
organizations perpetrating insurgent tactics to protect their 
assets.
    After 4 years of the Merida Initiative our border region 
with Mexico is more violent today then it was 4 years ago. A 
reduction in violence, while maintaining a full attack on the 
criminal organizations and strengthening the institutions to 
prosecute and punish them, is required in order to regain 
control. This is the basis of the counterinsurgency strategy 
that I outlined in the prior hearing.
    The United States should support a targeted yet 
comprehensive strategy that works with Mexico to secure one key 
population center at a time in order to build and support vital 
infrastructure and social development for lasting results. The 
counterinsurgency measures must include: (1) An all-U.S. agency 
plan including the Treasury Department, Department of Justice, 
CIA, U.S. Immigration and Customs Enforcement, the State 
Department and others to aggressively attack and dismantle the 
criminal networks in the U.S. and Mexico; (2) once and for all 
we must secure the border between the United States and Mexico 
by doubling Border Patrol agents, fulling funding and 
delivering on the needed border protection equipment such as 
additional unmanned aerial vehicles and the completion of a 
double layered security fence in urban hard to enforce areas of 
the border; and (3) we must take key steps to ensure local 
populations support the government and the rule of law over the 
cartels such as by promoting culture of lawfulness programs.
    As I stated before, the current U.S. policy with Mexico 
does not seriously address the national security challenges we 
face. It is time that we recognize the need for a 
counterinsurgency strategy that can combat the evolution and 
resilience of Mexico's transnational criminal organizations. 
This is a severe threat and requires a serious response.
    I look forward to hearing from our experts from the 
Department of Homeland Security, the Department of Justice 
represented by the DEA and the State Department on how the 
situation on the ground has evolved, the impact on U.S. 
personnel and their activities and tactical ways to squash this 
criminal insurgency.
    I now would like to recognize Mr. Keating for 5 minutes for 
an opening statement.
    Mr. Keating. Thank you, Mr. Chairman. And thank you for 
holding today's subcommittee. As a member of both the House 
Committees on Foreign Affairs and Homeland Security, I 
appreciate the opportunity to jointly examine this very 
important topic. Our combined presence indicates the extent to 
which we take the security of our southern border seriously, 
and I look forward to continuing to work with the Western 
Hemisphere Subcommittee on this topic.
    Mr. Chairman, we are here today to examine the progress of 
the Merida Initiative and how effective it has been in halting 
in full violence related to criminal activities and Mexican 
drug trafficking organizations, also known as DTOs, in moving 
illegal drugs and weapons across the southwest border.
    That being said, the brutality of these DTOs overshadowed a 
number of facts that are relevant to our discussion today. As 
we seek tangible solutions to the increasingly levels of 
violence in Mexico, let us remember that those responsible, 
particularly for violence against women, are not distinctive 
and the Mexican military is not always impartial. Yes, Mexico 
is an ally but we cannot paint the battle between the drug 
cartels and Mexican law enforcement in black and white.
    With minimum controls for corruption and impunity in Mexico 
it's difficult to decipher who exactly is committing the 
crimes. In two widely published cases cited by the Robert F. 
Kennedy Center for Justice and Human Rights, Ines Fernandez 
Ortega and Valentina Rosendo Cantos, two indigenous women were 
raped by soldiers from the Mexican Army in the municipality of 
Xalitla Guerrero State in 2002. However, to this day the State 
has refused to admit that these two women were raped. After 
nearly a decade, these cases were finally transferred to 
civilian courts, but these two cases are not insulated 
instances in the violence perpetrated by the military.
    The National Human Rights Commission says its received more 
then 5,000 complaints about the alleged abuses by the military 
since the offensive against the drug gangs began in 2006.
    I note this not to discredit our ally, President Calderon 
or the Merida Initiative, since both of them have led reform in 
the Mexican judicial system. But I want to for the purposes of 
this hearing as well, go into this hearing with a complete 
picture of what's happening on the ground in Mexico and what 
President Calderon is up against.
    At a time when we're all tightening our belts, we must 
monitor funding for the Mexican police and military closely, 
lest we add suffering to the innocent people who unfortunately 
have nowhere to turn. For this reason I strongly support the 
training assistance that we provide the Mexican military and 
police along with strong oversight mechanisms. The U.S. and 
Mexico have made strides in developing strong working 
relationships with diplomatic levels down to field agents 
patrolling both sides of the southwest border. At present more 
then 17,500 Border Patrol agents, 1,200 National Guardsmen are 
cleared for deployment along the border and over 250 
Immigration and Customs Enforcement special agents, ICE agents, 
are assigned to securing the border.
    Certainly this does not mean that incursions along the 
border do not exist, and undoubtedly more work has to be done. 
However, this is the highest number of personnel to ever 
protect our border in this region, and these numbers represent 
a step in the right direction. In fact, more effort and 
resources are deployed along the southwest border today then 
ever before.
    By the end of Fiscal Year 2011, according to the State 
Department, the U.S. will have invested almost $900 million in 
equipment and training to advance the Merida Initiative and to 
assist our neighbor south of the border. Since Fiscal Year 2008 
the U.S. has contributed approximately $1.6 billion overall to 
the Initiative, while Mexico has allocated $26 billion to 
promote public safety and security within its own borders.
    Furthermore, a new effort is being implemented to strike 
the Mexican civil society institutions by offering training and 
technical assistance.
    I hope that the advances in the Merida Initiative are 
followed along with efforts to strengthen our borders as 
opposed to making them more vulnerable with strangled budget 
cuts. Although we need to be incredibly weary of the money that 
goes into the Mexican Government, this is not the time to 
decrease the number of Border Patrol agents and thus have the 
effect of making the southwest border less safe. I urge all of 
my colleagues, on both sides of the aisle, to stand against 
such cuts.
    I look forward to this afternoon's testimony. Real progress 
has been made since the inception of the Merida Initiative and 
I am interested in hearing about the documented results of 
Americans participation in this program, which with proper 
oversight can lead to real success. It's vital that we, as 
Congress, work closely with our diplomatic and Federal agency 
personnel to ensure that they have the resources they require 
to continue partnering with Mexico to fulfill the goals of the 
Merida Initiative while combating crime and injustice on all 
side.
    I yield back.
    Mr. Mack. Thank you. I thank the gentleman.
    And now I would like to recognize the chairman Mike McCaul 
for his opening statement.
    Mr. McCaul. Thank you, Chairman Mack, for agreeing to hold 
this important joint hearing on a very important issue facing 
our neighbor and friend to the south, that is Mexico, and even 
beyond Mexico to the region of Central America.
    And I also want to thank Ranking Members Keating and Engel 
for participating as well.
    Over the past 5 years, more then 40,000 men, women and 
children have been brutally murdered by insurgents including 12 
mayors, a gubernatorial candidate, U.S. citizens and law 
enforcement officers. Local governments are harassed and 
intimidated while the bodies of those who stand up against 
these terrorists are hung from bridges and tossed into the 
streets. I'm not speaking about al-Qaeda or the Taliban. I'm 
describing the acts of the Mexican drug cartels.
    Mexico's President Felipe Calderon declared war on the drug 
cartels when he took office in 2006. He described the violence 
in his country as a ``challenge to the state, an attempt to 
replace the state.'' And in response to the recent Casino 
Royale fire in Monterrey claiming 53 lives, he said, ``We are 
facing true terrorists.''
    In 2008 the United States launched the Merida Initiative to 
assist Mexico in its war against the drug cartels. Over $1.5 
billion has been appropriated, but to date only a third of it, 
I am sure the witnesses will tell me more now, has been 
delivered. According to reports issued by the GAO, the Merida 
Initiative lacks the central goals, performance measures and 
accountability. This raises serious issues: What is our 
strategy and plan to help Mexico win this war? Is it now time 
to move beyond Merida? And what do the Federal agencies need 
from Congress to accomplish this mission that we all agree is 
so vital, not only to Mexico's national security but to ours?
    The United States efforts need to be reexamined. We are 
under resourced along our border with Mexico. There have been 
threats and attempts to kill U.S. citizens and Federal and 
state law enforcement officials.
    As a Member of Congress, I have had the privilege to travel 
and meet with our troops in Iraq and Afghanistan. But during 
one visit to the El Paso Intelligence Center I requested to go 
into Juarez. I was told by the State Department they could not 
guarantee my safety. Six thousand people have been killed in 
Juarez alone. Earlier this year I did visit Juarez, but we were 
given the same security measures that we were given in Iraq, 
Afghanistan and Pakistan.
    The cartels have not only breached our border but are now 
creating narco safe havens across the border, including in my 
home state of Texas. This is the conclusion of a recent report 
by Generals Barry McCaffrey and Robert Scales. And they also 
say that the cartels are using prisons and recruitment centers 
and cities in the United States for their drug operations. Both 
of these generals will testify before my subcommittee next 
week.
    Additionally, a very recent report from the Department of 
Justice reveal that the drug cartels operate in more than 1,000 
across the United States. One thousand cities. They control 
distribution of the most heroin, marijuana, methamphetamines 
and other narcotics. These terrorists both in Mexico and the 
United States are a threat to national security and should be 
treated as such.
    I introduced legislation requiring the State Department to 
classify drug cartels as foreign terrorist organizations, 
similar to what President Clinton to the FARC in Colombia. This 
would limit the groups financial and property and travel 
interests, and prosecute individuals who provide them any 
assistance. The legislation must also be tied to fighting the 
cartels both here and abroad using every means available.
    The drug cartels do intimidate and coerce the civilian 
population. They do effect the conduct of the Mexican 
Government and they threaten the national security of the 
United States. If you look at the Black Law definition and also 
under Federal law, this is the very essence of terrorism. There 
is a real war happening along our border and the enemy is 
covertly infiltrating our cities. We must take this threat 
seriously and take decisive action.
    In closing, I wanted to point to two more events. Just 
recently during rush hour the Gulf Cartel dumped two truckloads 
of 35 bodies at a busy intersection in the coastal city of 
Veracruz, and most disturbingly five severed heads were stuffed 
in a sack and placed outside a primary school in Acapulco, 
after the DTO threatened to attack elementary school teachers 
if they did not pay half their wages to the drug cartels.
    I submit to you, Mr. Chairman, that they are terrorizing 
the population. I submit to you that these drug cartels are 
terrorizing the school and the children and those schools.
    And with that, I yield back.
    Mr. Mack. Thank you very much, Chairman McCaul.
    And I would like now to turn to Mr. Engel for his opening 
statement.
    Mr. Engel. Thank you. Thank you, Mr. Chairman.
    This is the second in an important series of hearings on 
the Merida Initiative and in the situation in Mexico.
    Let me first say I welcome all the witnesses here, 
especially my friend Bill Brownfield who has been doing such 
wonderful work. And it's good to see all three of you. Very 
respected. I am happy that you are all here.
    I want to commend Chairman Mack for taking the opportunity 
to conduct oversight on this key priority for U.S. foreign and 
domestic policy. I am very happy to be here today.
    There is no more important relationship for the United 
States and Latin America then the one we have with Mexico. We 
share a border almost 2,000 miles long, a rich and intertwined 
history, deep cultural connections and economies which are now 
interwoven and mutually dependent: Yet today's serious 
challenges and problems extend to both sides of the border.
    In the last several years the drug trade, which had once 
been the domain mostly of the andine nations has moved north. 
It has taken hold in Mexico and severely damaged the northern 
parts of Central America. As I stated in the first of these 
hearings, I want it to be clear that the United States stands 
with our friends to the south in the fight against narco 
trafficking.
    Mr. Chairman, I am as disturbed as you by the horrors 
carried out by the drug trafficking organizations in Mexico. 
They are brutal criminals who prey on the narcotics abuse of 
people in the U.S. while ravaging communities in Mexico and 
elsewhere. We are in complete agreement that their actions are 
dangerous, illegal, and hideous.
    I do not want to have a semantical discussion. I am not 
sure if we could exactly call them insurgents in terrorism. I 
am not sure that actually describes what is going on in Mexico. 
DoD defines insurgency as an organized movement aimed at the 
overthrow of a constituted government through use of subversion 
and armed conflict. DoD defines terrorism as the calculated use 
of unlawful violence or threat of unlawful violence to 
inculcate fear intended to coerce or to intimidate governments 
or societies in the pursuant of goals that are generally 
political, religious or ideological.
    The drug gangs I do not believe have political, religious 
or ideological goals. They are criminals trying to make money 
to peddle their illicit narcotics. It is not exactly terrorism 
and not exactly insurgency but it do not make it any less 
awful. We in the United States, obviously, have a real stake in 
trying to get at them and trying to defeat them. I think Mr. 
McCaul's examples of what we have seen that these people are 
capable of is something that we, in the United States, 
obviously have a very important stake in.
    When I mentioned before about the definition of terrorism, 
because I am concerned that if we were to put these groups on 
the terrorist lists with the gun dealer who provides them 
weapons, the drug abuser who buys the drugs or the banks which 
loaned them the money would be prosecutable under terrorism 
laws; it is unclear. But at the very heart I think the 
possibility of adding these DTOs to the terrorism lists raises 
serious questions that we need to explore in this hearing. It 
does not mean that we have to go after them any less, in fact 
we need to do everything we can. I raise this because I just 
think it is important before we jump and call them terrorists 
or insurgents, I think we need to be careful.
    Among the other questions that I would like our witnesses 
to discuss today are: (1) whether we are doing enough at home 
to reduce demand for drugs. I've said many, many times when I 
chaired this committee and as ranking member that if we did not 
use the drugs, there would not be a need for these people to do 
what they do; (2) how can we slow the illicit flow of weapons 
into Mexico? I think we should discuss that today; (3) is the 
Merida Initiative moving fast enough? We have had a problem 
with that in the past. I think that is important to concentrate 
on; (4) and finally, how are U.S. authorities coordinating on 
the border with Mexican authorities?
    So, Mr. Chairman, I am very happy that we are having this 
hearing. I think that these issues are very important. I think 
our goals are identical. We need to see these criminals and 
these thugs brought to justice. We need to stop it. And we have 
a stake in it just as much as Mexico does.
    And I yield back.
    Mr. Mack. Thank you, Mr. Engel.
    And I now would like to introduce our witnesses.
    First, The Honorable William R. Brownfield. Ambassador 
Brownfield is the Assistant Secretary for the Bureau of 
International Narcotics and Law Enforcement Affairs. Prior to 
this appointment, Mr. Brownfield served as U.S. Ambassador to 
Colombia from August 2007 until August 2010. Before serving in 
Colombia, Ambassador Brownfield served as U.S. Ambassador to 
Venezuela and Chile. Welcome and thank you so much for being 
here today.
    Second, Mr. Rodney G. Benson. Mr. Benson is the Assistant 
Administrator of Intelligence for the Drug Enforcement 
Administration. Prior to his appointment, Mr. Benson served as 
a Special Agent in charge of the Atlanta Field Division where 
he directed and lead Federal drug enforcement operations 
throughout the state of Georgia, North Carolina, and Tennessee. 
Additionally, Mr. Benson served as Special Agent in charge of 
the Seattle Field Division.
    And third is Ms. Mariko, did I say that right? Mariko 
Silver. Ms. Silver is the Acting Assistant Secretary for 
International Policy of the U.S. Department of Homeland 
Security. Prior to her appointment Ms. Silver served as policy 
advisor for Innovation and Higher Education and Economic 
Development to then Governor Janet Neapolitan in the State of 
Arizona. Before joining the Governor's office, Ms. Silver 
served as Special Advisor to the President and Director of 
Strategic Project for the Office of the President at Arizona 
State University.
    Thank you all very much for being here.
    I now would like to turn to Ambassador Brownfield and 
recognize him for 5 minutes.
    Mr. Brownfield, thank you.

  STATEMENT OF THE HONORABLE WILLIAM R. BROWNFIELD, ASSISTANT 
     SECRETARY, BUREAU OF INTERNATIONAL NARCOTICS AND LAW 
          ENFORCEMENT AFFAIRS, U.S DEPARTMENT OF STATE

    Ambassador Brownfield. Thank you, Mr. Chairman, Mr. 
Chairman, Ranking Members, members of the Foreign Affairs and 
Homeland Security Committees. Thank you for the opportunity to 
appear before you today.
    I have a written statement for the record which I have 
submitted and would like to offer a brief oral summary.
    Mr. Chairman, I do not intend to spend your time describing 
the origin, history and purpose of the Merida Initiative. You 
know them better than I do. I will say that this has been more 
of a partnership between two governments than a traditional 
foreign assistance program. The Congress has been generous in 
funding it, and the Merida Initiative has delivered some 
concrete successes over the past 4 years.
    Since 2009, more than 33 high level cartel leaders have 
been removed or arrested. This compares with one in the 
preceding 6 years.
    Thanks to the Merida Initiative, the Mexican Government now 
has 14 additional helicopters, hundreds of sophisticated non-
intrusive inspection suites of equipment, more then 150 K-9 
teams, more then 52 Mexican police and prosecutors have 
received some professional training under the Merida 
Initiative. By the end of this year, we will have delivered 
more than $900 million worth of equipment and training to 
Mexico with more then $500 million delivered this year alone.
    There is no doubt in my mind, ladies and gentlemen, that 
the United States is better and safer today thanks to our 
support for the Merida Initiative. But, ladies and gentlemen, 
Merida is in transition. Where we once focused on delivering 
equipment and goods, we now focus more on providing specialized 
training. For 4 years we concentrated on building strong 
Federal institutions. We now concentrate more on state and 
municipal institutions. And we will initially focus our support 
in northern Mexico where the violence is greatest and where we 
have shared border security interests.
    Mr. Chairman, the Merida Initiative was not engraved in 
stone. It is a living strategy that is modified, adjusted and 
corrected as circumstances change on the ground and we learn 
lessons. Some of those lessons came from the United States 
Congress and came from some members in this very chamber. It is 
a valuable idea to integrate our efforts against illicit drugs, 
organized crime and terrorism in a unified holistic approach to 
support the Merida Initiative. We have learned the lessons from 
other theaters of operations around the world what can and 
should be integrated into our Merida efforts. But, Mr. 
Chairman, there are two lessons that we did not have to learn 
because we already knew them.
    The first is that Merida is a cooperative agreement between 
the U.S. and Mexico, with the Government of Mexico in charge of 
all activities within their territory. If we do not work 
together with the Mexican Government, then we accomplish little 
for either the American or the Mexican people.
    And second, as I learned it the hard way during my years in 
Colombia, is the lesson of strategic patience. I'm an optimist, 
Mr. Chairman, and I believe we have already made serious 
progress under this Initiative. But it took our two nations 
many years to get into this situation, and it is going to take 
us some years to get out of it.
    I thank you, Mr. Chairman and Mr. Chairman. And I look 
forward to your questions.
    [The prepared statement of Mr. Brownfield follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Mack. Thank you, Mr. Ambassador.
    And now Mr. Benson is recognized for 5 minutes.

  STATEMENT OF MR. RODNEY G. BENSON, ASSISTANT ADMINISTRATOR, 
 CHIEF OF INTELLIGENCE, DRUG ENFORCEMENT ADMINISTRATION, U.S. 
                     DEPARTMENT OF JUSTICE

    Mr. Benson. Good afternoon, Honorable Chairman, Ranking 
Members and distinguished members of the Foreign Affairs and 
Homeland Security Committees. Thank you for the opportunity to 
speak with you today on a subject of critical importance.
    My name is Rodney Benson, and I have the privilege of 
serving as the Drug Enforcement Administration's Chief of 
Intelligence. During my 28-year career with DEA, I have 
witnessed firsthand the evolution of Mexican drug trafficking 
organizations for marijuana suppliers in the '80s, the 
subordinance of the powerful Colombian cartels in the late '80s 
and early '90s, to one of the primary and most violent actors 
in the global drug market today.
    From my supervisory position on the southwest border, to 
coordinating multi-jurisdictional and transnational 
investigations at the headquarters level, and from my position 
as Special Agent in charge of offices as diverse as Seattle and 
Atlanta I have witnessed the remarkable spread of Mexican 
trafficker influence throughout the United States and around 
the world.
    Currently we enjoy unprecedented levels of cooperation and 
coordination with our Mexican counterparts and greatly 
appreciate the unwavering commitment and leadership of 
President Calderon. The fruits of the Merida Initiative have 
been critical in sustaining Mexican security forces against a 
formidable enemy. DEA has benefitted from the opportunity to 
work with better equipped and better trained police officers 
and prosecutors. The U.S. State Department has administered the 
provision of technical, material, and educational support to 
our tireless partners resulting in the dismantling and 
fracturing of several DTOs and encouraging our partners in 
Mexico to move forward in far-reaching judicial and law 
enforcement reforms.
    Information sharing between our two nations with the goal 
of capturing Mexico's most violent and prolific traffickers 
have never been more robust. As these warring groups have 
splintered into smaller, often legalist factions, we see that 
these surrogate bosses lack not only the discipline of their 
elders and former leaders, but the international connections 
and influence to realize the accustomed level of profit.
    Some might call the resulting behavior anarchy, and DEA 
recognizes that extreme seemingly arbitrary criminal violence 
begs a label when some of that violence is directed at 
government officials, police officers, soldiers, and civilians. 
And despite some groups resorting to terrorist-like tactics 
such as bombings and beheadings, these shocking acts are not 
precipitated by any motivation other than greed and rivalry. 
The members of these desperate organizations are not fighting 
in the name of an ideology or loss of their religion, or for 
political power and influence but to eliminate competition, 
settle scores and increase profits. Extortion, kidnapping, oil 
pipeline theft, prostitution, carjacking and robbery, even 
media piracy all serve to bolster drug trafficking revenue and 
they are the hallmark activities of organized crime.
    The Government of Mexico continues to work to build law 
enforcement capacity, and funding from the Merida Initiative 
was critical in the transformation of the Federal police agency 
and the training of police officers and prosecutors at all 
levels. In June of last year our partners passed some of the 
most effective anti-money laundering legislation in the 
country's history and the results have our bilateral efforts to 
claim a portion of the estimated $18-$39 billion in drug 
profits crossing our border every year are improving 
exponentially.
    As a next step, improving the effectiveness of Mexico's 
state and local police agency is tantamount for lasting 
success. I stress again, it has only been in this area of 
remarkable cooperation that U.S. efforts have been matched or 
exceeded by our partners in Mexico. We are committed to our 
partners and must continue to support their endeavors to bring 
security to Mexico and its citizens. Supporting the Merida 
Initiative and President Calderon as well as the next 
administration in Mexico is the only option.
    Thank you again for the privilege of speaking to you on 
behalf of the men and women of the Drug Enforcement 
Administration. And I will gladly respond to any questions you 
might have.
    [The prepared statement of Mr. Benson follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Mack. Thank you very much, Mr. Benson.
    Ms. Silver, you are recognized for 5 minutes.

  STATEMENT OF MS. MARIKO SILVER, ACTING ASSISTANT SECRETARY, 
 OFFICE OF INTERNATIONAL AFFAIRS, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Ms. Silver. Thank you very much.
    Chairman Mack and Chairman McCaul, Ranking Member Engel and 
Ranking Member Keating and distinguished members of the 
subcommittees on behalf of the Secretary of Homeland Security 
Janet Neapolitan, first I want to thank you for your continued 
support and for the opportunity to testify today about our work 
with Mexico and on the Merida Initiative.
    DHS components have participated in the State Department-
led Merida Initiative since its inception in 2007, and 
Secretary Neapolitan continues to support DHs' active 
participation in Merida-funded programs. While the State 
Department has responsibility, as you know, for policy 
oversight and dispersing Merida funds, DHS and other 
interagency partners participate heavily in implementing 
specific programs. This approach is consistent with the 
Department of State's Quadrennial Diplomacy and Development 
Review which states: ``Given the national security implications 
of security sector assistance, State will look first to the 
Department of Justice, Department of Defense, and Homeland 
Security to implement State programs involving counterterrorism 
capacity building, foreign law enforcement, or strengthening 
justice and interior ministries.'' And we are pleased to 
participate in that with respect to Mexico.
    In my written testimony I provided some specific examples 
regarding the types of engagement that CBP, ICE, Coast Guard 
and US-VISIT in particular have had during the course of the 
Merida Initiative. We work with State Department and with our 
Mexican partners on everything from training to procuring 
equipment paid for by the Merida Initiative. We believe that 
DHS' unique expertise and skill sets have contributed greatly 
to furthering the goals of the Merida Initiative.
    I want to note that the Merida Initiative marked a change 
in the nature and extent of collaboration with Mexican on 
security and law enforcement issues. We saw this at the policy 
level and we see it on the ground. As part of this shift, it 
lead to a significant reframing and reorganization of much of 
our bilateral engagement.
    The Merida Initiative, as you know, is now framed around 
four pillars. DHS work engages in all four, but we focus on 
pillar three, which is creating a 21st century border.
    During the State visit of Mexican President Filipe Calderon 
in May 20, 2010, President Obama and Calderon specifically 
noted the importance of the work being accomplished under 
pillar three. President Obama and Calderon's joint statement 
set out a policy vision for our countries articulating that 
``the Twenty-First Century Border must ensure the safety and 
security of residents and communities along both sides of the 
border.'' They affirm the mutual interests of Mexico and the 
United States to prevent entry into our countries of people who 
pose a threat to national security.
    The Presidents' border vision also recognizes the need to 
develop the border and manage it in a holistic fashion which 
we've been working on with our Mexican partners.
    This policy vision requires us to move beyond seeing border 
management as simply guarding or policing the jurisdictional 
line between the United States and Mexico. The border and the 
interior are inextricably linked as was pointed out. Thus, 
government efforts at the border and the interior should be 
complimentary, coordinated, of course deconflicted, and 
mutually re-enforcing leveraging the good work of all 
interagency counterparts.
    Enforcement at the border, that is between and at the ports 
of entry, is necessary but it should be part of a more 
comprehensive approach. Through this approach we need to engage 
domestically at the border and aboard, which we're here to talk 
about today, to secure the United States. We need to also 
leverage opportunities working with our foreign partners to 
intercept and neutralize threats before they reach the U.S. 
border.
    DHS recognizes, of course as I'm sure do all of you, that 
more places and more countries are interconnected through 
networks of trade and travel everyday. The very nature of 
travel, trade and commerce today means that vulnerabilities or 
gaps anywhere across the globe, including of course in our 
neighbor Mexico, have the ability to affect activity thousands 
of miles away and here in the United States. Our efforts to 
secure our borders then must also include efforts to secure 
global trade and travel networks. This view of border security 
highlights the importance of collaboration and coordination 
with federal, state, local and travel governments as well as 
international and private sector partners. It's built on 
approaches to ensure both economic competitiveness and national 
security. We, of course, can't let commerce grind to a halt.
    DHS appreciates the support Congress has shown for our work 
and your support of the United States relationship with Mexico 
through the Merida Initiative. From the field level to senior 
departmental leadership the United States and Mexico are closer 
now then we have been.
    While challenges remain, we believe there's a strong 
foundation of cooperation on which we will build. We look 
forward to continuing to work with Congress to achieve these 
goals and with our Mexican partners.
    Thank you again for the opportunity to testify. I'm happy 
to take any questions you may have.
    [The prepared statement of Ms. Silver follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Mack. Thank you very much, Ms. Silver.
    And I now recognize myself for 5 minutes for questions.
    First of all, let me make this perfectly clear. The people 
of the United States and the people of Mexico have a shared 
interest in this. The people of Mexico and the people of the 
United States have similar desires, and that is for the ideas 
of freedom, security, and prosperity. And this hearing today is 
to get at some of the questions about where we have been, which 
have been documented, but if we have diagnosed the problem 
correctly and what do we do moving forward.
    So first, let me ask just kind of a baseline question here 
for all of you. And, hopefully, I can get a yes or a no. I know 
that might be difficult for some of you, but please try.
    Have the drug cartels in Mexico evolved in their criminal 
activities and level of violence since 2007?
    Ambassador?
    Ambassador Brownfield. I'll start, Mr. Chairman. They have 
evolved. They are different cartels than they were at the start 
of this process. They are smaller. They are more numerous. They 
are more diverse. And as a consequence, they are a different 
kind of strategic and tactical problem to address than they 
were 4 years ago.
    Mr. Mack. Thank you.
    Mr. Benson?
    Mr. Benson. Yes, Mr. Chairman. We have seen an evolution, 
expansion. Some of those cartels splintering and then 
essentially creating more criminal groups that we are 
targeting.
    Mr. Mack. Thank you.
    And Ms. Silver?
    Ms. Silver. Yes, I would concur with that. They are 
definitely more fragmented. We have many more on the ground, 
small groups. And so, as Ambassador Brownfield pointed out, the 
law enforcement challenge is different.
    Mr. Mack. Okay. Ambassador Brownfield, according to the 
CIA, and I quote: ``Insurgent activities include guerrilla 
warfare, terrorism and political mobilization such as 
propaganda, recruitment and international activity.'' Do you 
agree that the cartels in Mexico are engaging in the activities 
listed by the CIA?
    Ambassador Brownfield. It's a label, Mr. Chairman, but I 
will not question whether certain members and certain 
organizations are doing certain things. Although to be honest, 
I could probably make the same comment about organizations in 
the United States as well.
    Mr. Mack. But you don't deny that the cartels are engaged 
in guerrilla warfare, terrorism and political mobilization such 
as propaganda, recruitment and international activities?
    Ambassador Brownfield. I accept that individuals of some of 
these organizations are doing at some time and in some places 
this sort of activity. I do not suggest it is systematic 
nationwide or institutional.
    Mr. Mack. We have a slide here. Guerrilla Warfare. So you 
have got examples of Mexican Federal police officers attacked 
in Mexico.
    Next slide. Terrorism. You have a gunman who killed 52 
people and burned the Casino Royale in Monterrey, Mexico. And I 
believe the President himself indicated that that was 
terrorism.
    Political Mobilization. You have a candidate for governor 
who was assassinated in June 28, 2010. You have political 
protests. Increasing pressure and awareness surrounding the war 
on drugs.
    Again, next slide, Propaganda and Recruitment. You actually 
have the cartels holding fairs and providing food and drinks 
and music, happy children's day and at the same time recruiting 
and offering better pay and health care. So I think that would 
go toward that.
    And then you have International Activity, which we have all 
talked about here today.
    So, I am having a little bit of a hard time understanding 
the reluctancy in saying that the activities that the cartels 
are showing do fit the definition the CIA talks about 
activities as an insurgency.
    Ambassador Brownfield. I don't question your facts, Mr. 
Chairman, nor do I question your motivation. You and I have 
exactly the same objective in mind here. If on the other hand, 
you are asking me do I see exactly the same thing here as I see 
in other parts of the world that we have described as an 
insurgency, obviously they are different.
    Mr. Mack. Ambassador, I am not asking about other parts of 
the world. I am asking specifically about whether or not the 
cartels are partaking in an insurgent activity as outlined as 
we just did.
    The last question here. The Department of Homeland Security 
and the Department of Justice are addressing some of these 
newer concerns such as drug trafficking financing in the United 
States and Border Protection programs, but separate from the 
Merida Initiative. Would it not make sense to have a 
coordinated U.S. strategy to meet strategic U.S. goals in 
Mexico?
    Ambassador, if you want to take a quick shot at that?
    Ambassador Brownfield. Sure, although we would have to work 
our way through just as you do when you are melding what your 
subcommittee does with what Mr. McCaul's subcommittee does. We 
have to address those same issues as we are dealing with a 
foreign issue and a domestic issue.
    But the answer to your question is yes.
    Mr. Mack. All right. Thank you, Mr. Ambassador. So you 
agree that there has been an evolution in the activities in the 
violence by the cartels. You can agree that there has been 
insurgent activities in Mexico from the cartels. And that we 
need to have a coordinated U.S. strategy to meet the strategic 
goals.
    Mr. Benson, do you agree with that?
    Mr. Benson. Mr. Chairman, I think right now we have a very 
robust interagency targeting effort as we target Mexican 
organized crimes and their cells here domestically. And that 
intelligence that is generated is shared very timely to our 
counterparts in Mexico. And our goal obviously being able to 
impact the largest piece of the organization as possible, and 
we continue to do that as the Ambassador mentioned on some of 
these captures that we have had over the last couple of years. 
Unprecedented numbers of high value targets of cartel 
leadership that has created these smaller groups has been a 
great success.
    Mr. Mack. Thank you, Mr. Benson.
    And my time has expired. I would now like to recognize to 
Mr. Engel for 5 minutes for questions.
    Mr. Engel. Thank you very much, Mr. Chairman.
    You know, again, I do not want to get into semantics, but I 
just think that it is important that we define these things.
    I want to read something that Mexican Ambassador Arturo 
Sarukhan wrote on April 11th of this year in the Dallas Morning 
News, and I quote him:

        ``These transnational criminal organizations which 
        operate in both our countries are not terrorist 
        organizations. They are very violent criminal groups 
        that are well structured and well financed. They pursue 
        a single goal. They want to maximize their profits and 
        do what most businesses do: Hostile takeovers and 
        pursue mergers and acquisitions. They use violence to 
        protect their business from other competition, from 
        other competitors, as well as our two governments' 
        efforts to roll them back. There is no political 
        motivation or agenda whatsoever beyond their attempt to 
        defend their illegal business. Misunderstanding the 
        challenge we face leads to wrong policies and bad 
        policy making. If you label these organizations as 
        terrorists, you will have to start calling drug 
        consumers in the U.S. financiers of terrorist 
        organizations and gun dealers providers of material 
        support to terrorists.''

    So I am wondering, and we can start with Ambassador 
Brownfield, could you discuss the implications of labeling the 
Mexican DTOs as terrorist groups? Do you agree with Ambassador 
Sarukhan?
    Ambassador Brownfield. Ambassador Sarukhan, obviously, is a 
very wise man. He does not speak for the United States 
Government or for me. He does speak for the Government of 
Mexico.
    I think his reasoning is pretty sound, Congressman. And 
that is to say that we have to look through just the label and 
we have to think through what the implications of the label 
would be.
    I agree with virtually all the suggestions that the facts 
are consistent with the label. I then say that is only half of 
our job, the next half is to assess what is the implication of 
us making this determination? Does it have domestic legal 
implications? Does it have implications that are political in 
nature? What does it give us that is more than we already have? 
These are the questions that I think we should ask, as well as 
whether the specific acts of these organizations are in fact 
consistent with the acts of insurgency or of a terrorist 
organization.
    Mr. Engel. Mr. Benson?
    Mr. Benson. Sir, in my career I have targeted Mexican 
organizations operating on the border, up on the north border 
across in the southeast, the northeast it has been targeting of 
organized criminal gangs, cartel representatives and linking 
that back to those leaders back in Mexico. We do clearly show 
our intelligence that we generate here in the United States and 
as we target, they are clearly taking direction from their 
leadership south of the border.
    Mr. Engel. So is Ambassador Sarukhan right? Do you agree 
with his statement that I read that he wrote?
    Ambassador Brownfield. As a career Special Agent I view 
those Mexican trafficking groups as organized criminals, 
organized crime.
    Mr. Engel. Ms. Silver?
    Ms. Silver. From our perspective at DHS, we also view them 
as organized crime. And our interest is less in the semantics, 
as you say less in the label but what the label implies 
operationally for us. And for us we find that the law 
enforcement tools that we have are best suited to the job that 
we see it as.
    Mr. Engel. Thank you.
    The original statement jointly issued by the U.S. and 
Mexican Governments in October of '07 announcing the Merida 
Initiative, and I remember it very well because I chaired this 
subcommittee then, said that reducing demand in the United 
States is a major goal of the program. Without demand in this 
country it is clear that there would not be a significant 
narco/criminal problem in Mexico, Colombia or elsewhere. Since 
FY '04 spending on demand reduction has increased $2 billion. 
But why are we not doing more to reduce demand for illicit 
narcotics in the U.S.? Are we living up to our original 
commitment under the Merida joint statement to fight demand? 
And if we do not deal with demand at home, are we not treating 
the symptoms and not the disease?
    Ambassador?
    Ambassador Brownfield. I will start on this, Congressman, 
although as you know I look externally as opposed to 
internally.
    Obviously, it is a very simple matter to say if there is no 
demand, there is no supply because you are not supplying any 
demand. It is much more complicated then that, as we all know. 
We have been addressing this internal drug consumption problem 
in the United States in a serious way for nearly 50 years. We 
have not been sitting on our hands. We spend more money on this 
than I think any other nation on the planet. It has integrated 
into our domestic policy.
    And, I would offer a foreign affairs suggestion as well. 
Let us not assume that when the day arrives that we have solved 
our drug problem, the foreign drug supply problem is going to 
disappear. It will not. Evidence Exhibit 1 is U.S. cocaine 
demand has reduced some 50 percent over the last 6 or 7 years. 
Has the production of cocaine disappeared 60 percent? No, it 
has not. The producers have sought out new markets and it goes 
to additional locations. They are in it for the money and they 
will create markets if markets are denied to them.
    Mr. Engel. I guess my time is up. I do not know if anyone 
just wants to jump in quickly.
    Mr. Mack. Does somebody have a quick answer to this?
    Mr. Benson. I would just say that we have a primary 
enforcement arm, but there is that constant of time frequently 
where agents are going to our local schools and many, many 
outside events on demand reduction. Because that, obviously, is 
an important component as we look at the drug abuse problem in 
the U.S.
    Mr. Mack. Thank you, Mr. Engel.
    Mr. Engel. Thank you, Mr. Chairman.
    Mr. Mack. I now recognize Mr. McCaul for 5 minutes for 
questions.
    Mr. McCaul. And thank you, Mr. Chairman.
    Let me first commend all three witnesses for your 
dedication and service to this country in a very challenging 
time.
    I think we do not pay enough attention to this issue. I 
know, Ambassador, you are the expert and you have been on this 
issue for decades. You were an Ambassador to Colombia. And we 
recently went down to Colombia to visit with the President down 
there to talk about what worked and what did not with Colombia. 
And we do know that one of the things that President Clinton 
did was designate the FARC as a foreign terrorist organization.
    And I think it is important to point out this is more than 
just a label. It is not just a label. It is a designation that 
provides authorities. It is a designation that provides tools 
to combating them by freezing bank assets in the United States, 
by prosecuting with a 15-year enhancement for anybody who aids 
and abets a terrorist, by allowing us to go after--unlike the 
Kingpin which only you go after the head--this allows you to go 
after the body of the organization. In addition, it does not 
have to be just a portion of the United States, it could be a 
foreign national which I think is critical. So jurisdiction is 
beyond the United States.
    And I just wondered your experience, Ambassador, in being 
down there in Colombia and watching that successful operation, 
with this foreign terrorist organization designation, can you 
tell me whether that was helpful?
    Ambassador Brownfield. A very fair question, Mr. Chairman. 
And I will offer you a couple of observations.
    First, I have absolutely no objection to having placed the 
FARC, the ELN and at that time the AUC, the paramilitaries, on 
the FTO list. I participated in that process in 1999/2000, and 
I believe 2001.
    It was helpful to the extent that it got at their support 
network. I do not think it had a direct and immediate impact on 
them inside Colombia because the guys that were in the camps 
and jungle, obviously, were not worried a great deal about 
their designation. But their external support structure was in 
fact effected. And in fact, their external support structure 
was small enough that you are able to verify who they were and 
go after that. That was helpful.
    Being able to call them terrorists was helpful.
    Being able to asset every time we talked about the hostages 
that they were keeping in jungle camps and referring to them as 
terrorist was helpful.
    Being able to say that we, the European Union, the 
Canadians and there may have been one other government, had all 
put them on the same list was helpful.
    I do not deny it: It was helpful in Colombia and I do not 
and I have said it once and I will say it again, you and I have 
exactly the same objective. The question is: How are we going 
to get there?
    Mr. McCaul. And I think that is a fair assessment.
    The definition of ``under Federal law'' is to intimidate or 
coerce a civilian population or government by extortion, 
kidnapping, political assassination. You know, when I look at 
what is going on down there, it seems to me they fall squarely 
within that definition. I mean, maybe it is semantics, Mr. 
Engel, but I do think this law would provide additional 
authorities to help President Calderon win this war. He 
described the violence in his country as a challenge to the 
state, an attempt to replace the state. That sounds much more 
than just organized crime.
    And in the recent casino fire he says that we are facing 
true terrorists.
    So, Mr. Benson, I appreciate everything you do wit the DEA 
and your agents, particularly down in Mexico an Central 
America. I mean, they are really in the line of fire.
    In your testimony you have under here, ``The Threat to 
Governance. Those who organize, finance, direct and control 
drug trafficking thrive in areas where government control is 
weak.'' We know that they are looking, just as the Taliban and 
al-Qaeda does, for failed states. I would argue that Guatemala 
is on the verge of being a failed state.
    When we were in Mexico City, 25 farmers' heads were cut off 
that day. This is real stuff. And it seems like everyday we are 
hearing about some new report. And they are looking for safe 
havens. They are looking to manipulate the governments.
    In your testimony you said, ``More troubling is the fact 
that many of these brutal murders were committed with the 
specific intent to intimidate the public and influence the 
government to suspend action against the cartels.'' To 
intimidate the public and influence the government. Again, 
going back to the definition under Federal law, to intimidate 
and influence. They terrorize civilians. They terrorize the 
Mexican people. There is no question about it.
    The example of the school bus, trying to extort money from 
teachers and throwing heads in the front of the school. You 
know, this is beyond some of al-Qaeda's worst tactics. There is 
a real problem down there.
    And I guess the debate we are having is how best to handle 
that. I want to allow you, Mr. Benson, to respond.
    Mr. Benson. Sir, I agree they are attempting to instill 
fear in the public because they want to try to instill this 
fear on the public to prevent the government from increasing 
their operation tempo and targeting. The government is having a 
continued success and so they are reverting to these vicious 
acts to instill that fear.
    So in my opinion we need to keep that operational tempo 
going forward both in the United States and in Mexico, what we 
are doing now and those successes that I have highlighted. 
Because if we continue attacking their leadership in both 
countries simultaneously with that information flow going back 
quickly, that will result in positive success down the road.
    Mr. McCaul. I agree with you that partnership is key.
    I do not know if we are going to have a second round. Are 
we? Okay.
    Just for the record, I would like to put into the record 
the response from the Dallas Morning News to the letter 
described by Mr. Engel. It was very interesting that these are 
not just businessmen trying to make money. They are more than 
that; they are killers and they do terrorize.
    And with that, I yield back.
    Mr. Mack. Thank you, Mr. McCaul.
    I would now like to recognize Mr. Keating for 5 minutes for 
questions.
    Mr. Keating. Thank you, Mr. Chair.
    Ambassador Brownfield, you made reference to the fact that 
Merida is in transition and we have moved from equipment and 
good to training, and I just want to ask a question in that 
regard and also make aside that in 2010 we withheld 15 percent 
of Merida funds pending compliance of some basic human rights.
    I'll jump to this because I think it's more important for 
me. To what extent do you think the people in local 
communities, particularly indigenous communities, feel 
comfortable going to the Mexican miliary or the police to 
report crimes?
    Ambassador Brownfield. Congressman, obviously it will 
depend upon the community and there is a difference between the 
military and the police. The military does not tend to be 
local. They obviously have come in from somewhere else for the 
mission of whatever duration. The police are local and are 
members of the community.
    And in some communities in Mexico, I would say to you that 
probably the community is very uncomfortable reaching out to 
the authorities seeing them as part of the problem rather then 
part of the solution. In others, I suspect that is different.
    One thing that I would suggest to you fairly strongly, 
however, is that since the Merida Initiative more Mexican 
communities have seen their law enforcement and military as 
part of the solution rather than the problem then they did 
before Merida.
    Mr. Keating. Thank you. And I just want to follow-up, too. 
How have women been impacted by the violence of the drug 
cartels and by cases also Ines and Valentina where the very 
forces that were supposed to protect them harmed them and then 
ignored the allegation of rape?
    Ambassador Brownfield. A two-part answer for a two-part 
question.
    In my judgment women have been inordinately affected by the 
drug cartels in their attempts to intimidate through violence, 
through extortion, through threats the communities and the 
institutions because of the belief that by threatening the 
female population they will have greater impact then 
threatening, killing or otherwise abusing males.
    The second part of your question deals with the 
institutions that are supposed to be protecting them. And, 
obviously, every time that you have a case, an incident in 
which the institution that is held responsible for protecting 
that community in fact go to the dark side and becomes part of 
the problem, you've taken a giant step back that it takes years 
sometimes to restore the confidence in the institution.
    Mr. Keating. Yes. Do you think that withholding funds 
specifically geared to that would be a deterrent to that? 
What's going to change that?
    Ambassador Brownfield. I'll offer you my view with which 
you have every right not to agree with completely. Congressman, 
in my judgment there are many ways to attack this issue. Some 
of them are direct and blunt and frontal, and that is to 
withhold funding until or put specific training components into 
the program that says you will be trained on human rights, you 
will be trained on respect for women and children, whatever 
that may be.
    Part of this is indirect. You build institutions, 
prosecutors, and even special courts that are designed 
specifically to address this issue.
    But in my personal opinion the most important thing we an 
do is professionalize across the board throughout the nation 
Mexican law enforcement. When you have more professional, more 
competent, better trained law enforcement officers, just 
trained in law enforcement, they are far less likely to commit 
that sort of abuse. And that kind of cuts against holding too 
much of the funding in abeyance, because that 15 percent is 
obviously 15 percent that for that period of time is not being 
used for that training purpose. I swing either way, it depends 
upon the day and what I had for lunch.
    Mr. Keating. Well, none of that will do any good if we 
don't have oversight that's going to bring this to the surface. 
What are we doing and American taxpayers are funding many of 
these initiatives, what are we doing to make sure this is being 
rooted out and we discover this and then through training or 
maybe other actions, withholding money and other actions, we 
could deal with that? I know I'm only leaving you about 25 
seconds, but I want to ask you about that oversight; how are we 
going to find that out? Are we doing a good enough job in that 
regard?
    Ambassador Brownfield. My own view is I give us about 
between a C-plus and a B-minus right now, but I would do that 
with almost any program of this size that we're just getting 
started. Your problems will almost always occur in the first 2 
or 3 years of your massive program. And I don't care if you're 
talking about Afghanistan, Iraq, Pakistan, Mexico, Colombia, 
that's where you're biggest number of problems are.
    We're out of that period right now. You have a right to ask 
of us what is our specific evaluation and oversight mechanism, 
and I will tell you that I believe that that is our challenge 
for this year that we're still in and next year.
    Part of the problem that we have to work our way through is 
how we work this with the Government of Mexico, because at the 
end of the day these are their institutions, their police, 
their military.
    I actually hope you will call me up and haul me over the 
coals in another 6 months time on just that issue because I am 
in fact hopeful we're going to have a much better, clearer and 
more precise story to tell by that time.
    Mr. Keating. Thank you. And since I'm over my time, if you 
could in writing forward to me not just the grade but what 
actions and oversight you're going to implement and then we'll 
look at the grade afterwards.
    Thank you.
    Mr. Mack. Thank you, Mr. Keating. And just for the record, 
Mr. Ambassador will be happy to call you back and rack you over 
the coals.
    Ambassador Brownfield. Bless the----
    Mr. Mack. I would now like to recognize Mr. Bill Bilirakis 
for 5 minutes for questions.
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it 
very much.
    To the panel, for several months now I've expressed my deep 
concern regarding reports that the administration participated 
in multiple acts of gun walking, such as we've seen, of course, 
in the case of ``Fast and Furious,'' allowing firearms to pass 
into the possession of criminal and other third party 
organizations south of our border. I strongly support efforts 
to disrupt criminal syndicates that traffick firearms, and of 
course drugs, and conduct other illicit and illegal activities. 
However, when those efforts serve to fuel the operations of 
criminal enterprises through the provisions of firearms, they 
must be stopped.
    It is extremely troubling that the United States Government 
will willfully allow weapons to be acquired by dangerous 
criminals and drug trafficking organizations in direct 
contravention to our strategic and national interests.
    Can the panel please explain for the committee what efforts 
your agencies are currently taking to enforce current laws and 
to ensure that we are not allowing weapons to fall into the 
hands of Mexican drug cartels and criminal organizations?
    Mr. Benson. Congressman, when I look at drug trafficking, 
and drug trafficking and violence go hand-in-hand, and as we 
target those cartel representatives whom are deployed to the 
United States, we encounter weapons frequently and we seize 
those weapons. And we do that continuously throughout 
operations throughout the country.
    Ms. Silver. Also, thank you for the question.
    From the DHS point of view, obviously we are constantly on 
the lookout in the southwest border and in the region for 
weapons that are south bound. We have instituted checks of rail 
and of cars that far outstrip anything we've done in the past 
for exactly that reason, and we'll continue to do so.
    Ambassador Brownfield. And finally if I could add on, from 
our end, Congressman, and that's the external side, what we do 
on the southern side of the border. We are working to support 
both training for Mexican law enforcement and military in terms 
of identification of and how to do investigations of illicit 
firearms and illegal firearms. And second, we support tying 
them in to our own electronic tracing systems that we have, 
whereby we can track through serial numbers and other 
identifying data a firearm to give the Mexican institutions 
access to that same system.
    Mr. Bilirakis. Thank you. The safety of our men and women 
in uniform remains, obviously, my concern and I'm going to 
demand that those who are on the front lines of this battle get 
the training, resources and support they need to do their job 
as safely and as effectively as possible.
    We must act decisively to gain operational control of the 
border. To do anything less would be a disservice to our Border 
personnel and leave the door open through which criminals, drug 
smugglers, human traffickers, and terrorists can destroy the 
fabric of our society.
    While the Merida Initiative involves bolstering the 
effectiveness, accountability, and professionalism of Mexican 
police at the Federal level, corruption among local police 
forces is consistently cited as one of the key reasons as to 
why the drug cartels are able to continue exporting their 
product to the United States. Whether they turn a blind eye or 
actively work for the cartels, corrupt police officers enable 
the drug gangs to remain a national, as opposed to a regional, 
threat.
    My question on this matter is twofold. How does the Merida 
Initiative address the issue of corruption among the local 
police officers? If Merida does not address this issue, what 
plan of action would you recommend to this committee to counter 
the crippling influence of corrupt police officers, corrupt 
police forces on what the Initiative is trying to accomplish? A 
question for the panel.
    Ambassador Brownfield. Let me start, Congressman, and I'll 
start by the last sentence that I offered in my oral statement, 
and that is it took us many years to get into this situation, 
it's going to take some years to get out. And corruption 
clearly falls in that category.
    What are we doing right now? First, we are attempting to 
professionalize first the Federal police forces and 
increasingly in the future, the state and local police forces, 
because a professional law enforcement institution is less 
likely to be corrupt then a non-corrupt one.
    Second, we are supporting the development of internal 
investigatory capability; the equivalent of an IAD in a U.S. or 
municipal or state or Federal police institution. These 
individuals within the police force whose job is to monitor, 
investigate and if necessary, sanction corrupt members of the 
institution.
    Third, we are trying to work to ensure that they have 
salaries that you can actually live on. If your salary is $15 a 
month, it is highly likely that you will try to supplement that 
through external month. If your salary is a $1,000 a month, 
it's at least $985 less likely per month that you will try to 
supplement it.
    And finally, we are working with the Attorney General's 
Office of Mexico and will increasingly work with the State 
Attorney's General to ensure public prosecution that becomes 
visible to everyone in the community of corrupt officials and 
officers that thereby sends a signal that corruption will not 
be tolerated.
    Mr. Bilirakis. Well, how much progress have we made in this 
area, though?
    Ambassador Brownfield. I would say it depends upon where 
you are and what the institution is that you're dealing with. 
But I will talk about the one that I believe has seen the 
greatest progress in this regard, and that is the Federal 
Police of the SSP, an institution that before the Merida 
Initiative totaled about 6,000 is now nearly 40,000. And my own 
personal opinion is that this is an institution that is much 
more highly regarded for its professionalism, and by the same 
token its relative honesty than it was 4 or 5 years ago. If we 
could get to that level in the 32 states and hundreds of 
municipal institutions, I would suggest to all of you, ladies 
and gentlemen, that we have made some real serious progress.
    Mr. Mack. Thank you, Mr. Ambassador.
    I would now like to recognize Mr. Rohrabacher for 5 minutes 
for questions.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. And I 
appreciate this hearing. We need to pay attention to Mexico. I 
have been in and out of Mexico since I was a kid. I am a 
southern Californian. Spent a lot of time in Baja and lived 
with a Mexican family, actually, for several months when I was 
in college. And it seems that since that time--which at that 
time Mexico was a very pleasant place, the people were very 
wonderful people--it just seems that this horrendous cloud has 
come over our neighbor and is now enveloping these wonderful 
people.
    I want to suggest that law enforcement--I mean, basically 
what I am hearing today is that law enforcement is going to be 
the answer. I would just like to suggest to you I do not think 
that is the case. I do not think you are going to solve the 
problems down there with law enforcement.
    We have been trying to bolster. We have had military groups 
that we have bolstered and then have turned against the 
authorities and joined the cartels. For 20 years now we have 
been trying to suggest that cooperation of law enforcement can 
solve this problem, yet it has gotten worse and worse and 
worse.
    Let me ask you a little bit about something that was just 
brought up. Did any of your agencies know about the ``Fast and 
Furious'' operation that saw that thousands of military-style 
weapons transferred from our Government into the hands of the 
cartels, including high caliber sniper rifles? Did any one of 
your organizations know about that operation prior, as it was 
going on and it was being instituted?
    Let us go right down the line. Did you personally know 
about it and did someone in your operation know about it?
    Ambassador Brownfield. I did not, and to the best of my 
knowledge no one in my part of the U.S. Government did.
    Mr. Rohrabacher. Okay. So nobody from the Bureau of 
International Narcotics and Law Enforcement Affairs knew about 
``Fast and Furious'' is your testimony today?
    Ambassador Brownfield. I became aware of it at the same 
time that it hit the media.
    Mr. Rohrabacher. Okay. What about Drug Enforcement 
Administration?
    Mr. Benson. Well, Congressman, currently we are working 
with those committees that are investigating that matter. At 
this time that would be the comment I would make.
    Mr. Rohrabacher. Okay. So your comment is that you are not 
going to comment on a direct question about whether or not your 
agency knew about ``Fast and Furious''?
    Mr. Benson. My comment would be is that we are working with 
those subcommittees that are investigating ``Fast and 
Furious.''
    Mr. Rohrabacher. Well, this happens to be a Member of 
Congress who is very interested and you are now under oath, so 
maybe you could answer the question for me?
    Mr. Benson. That would be my comment at this point.
    Mr. Rohrabacher. Yes. All right. Which is no comment; I 
find that to be of great interest that your predecessor, I mean 
your fellow that just spoke, Mr. Brownfield, could absolutely 
go on the record and say he did not know anything about it and 
you cannot.
    How about you, Ms. Silver, did you know about ``Fast and 
Furious''?
    Ms. Silver. I learned about it in the press when it became 
when it became exposed to all of you. And in terms of my 
office, I can say that no one in my office knew about it.
    Mr. Rohrabacher. Okay. You personally did not know anything 
about it nor did anyone in your office----
    Ms. Silver. I did not.
    Mr. Rohrabacher [continuing]. As far as you know?
    Ms. Silver. That is correct.
    Mr. Rohrabacher. Well, I appreciate that. I just wanted to 
put that on the record, Mr. Chairman.
    One thing, I voted for NAFTA years ago based on the promise 
that NAFTA would in some way help the economy of Mexico and 
thus prevent, or at least offer an alternative, to drugs as 
being a means of earning a living down there. Didn't have a 
positive impact and can we make these economic agreements and 
accept that they will have a better impact elsewhere then 
they've had on Mexico?
    And feel free, whoever thinks they can answer that.
    Ambassador Brownfield. Congressman, I suppose I should say 
that we are not the right people to answer that question, 
however my wife says there is never an issue I should not talk 
not, that I am not willing to talk about. So, I will have very 
simple views.
    As Congressman Engel knows, I spent 3 years in Colombia, 
actually trying to make a case for an FTA, which has finally 
found its way to this institution. So, I will make that basic 
generic case.
    Free trade agreements for the most part are good for the 
economies for both countries involved. They are good for the 
economies involved because they allow free trade and commerce 
to come across----
    Mr. Rohrabacher. Could you compare that to Mexico for us, 
could you?
    Ambassador Brownfield. At the end at the end of the day I 
do not claim to be an expert on NAFTA, but I would say to you 
that the logic is that the cost of moving goods back and forth 
across the border, you produce more trade. By producing more 
trade, the factories and companies produce more stuff. As they 
produce more stuff, they employ more people. As they employ 
more people, their economies grow. The logic, therefore, is the 
economy grows on both side of the border. That's the logic 
behind a free trade agreement.
    Mr. Rohrabacher. Right. But it has gotten worse in Mexico 
since we passed NAFTA, unfortunately. I mean, that is just the 
observation that we make. I mean, it is inescapable to see 
that.
    But listen, thank you very much, Mr. Chairman.
    Mr. Mack. And I thank the gentleman from California.
    Next I would like to recognize Mr. Duncan for 5 minutes for 
questions.
    Mr. Duncan. Thank you, Mr. Chairman.
    And I think we have done a good job exploring this topic 
today. I want to thank the panelists for being here and for 
your service to our nation in your various capacity.
    I am going to take a little different line of approach here 
because it is a topic that is interesting to me and we have 
talked about this many times on the Committee of Homeland 
Security. And that is the issue of an international terrorist 
organization Hezbollah and its involvement with the Mexican 
drug cartel. Many experts believe that the international 
terrorist organization Hezbollah and the Mexican drug cartel 
have been working together for years. And it is well known that 
Hezbollah and drug cartels have cooperated in countries in 
Western Africa, South America, Central America and most 
importantly, the tri-borders region in South America.
    U.S. authorities have long described Hezbollah as the A 
team of international terrorism with far more discipline than 
al-Qaeda, with vast financing from the Governments of Iran and 
Syria and a global network of sleeper operatives who could be 
called on to launch an attack at anytime.
    Just last year in July 2010, we saw the first IUD explode 
south of the U.S. border in Mexico. Since the fall of 2008, at 
least 111 suspects of Hezbollah-linked international network of 
drug traffickers and money launderers have been arrested as 
part of an international operation coordinated by DEA.
    And I can go on and talk about the owner of a cafe in 
Tijuana arrested in 2002, Mahmoud Youssef Kourani, who traveled 
all the way to Dearborn, Michigan, spent 4 years in prison for 
conspiring to raise money for Hezbollah. There are just a lot 
of cases out there.
    And so, Mr. Benson, I would ask how much of a priority 
should Hezbollah be to American counterterrorism policy?
    Mr. Benson. Congressman, as we look at the tie between drug 
trafficking and terrorism, we do see that around the globe. So 
I mean clearly for the DEA it is a priority that we look at 
those organizations and we continue to look at their connection 
across the globe.
    Mr. Duncan. And thank you for serving our region of South 
Carolina where I am from, by the way. I meant to mention that.
    However in your activities with DEA, is there any 
conclusive evidence of Hezbollah's involvement with the 
tunneling activities of the cartels?
    Mr. Benson. I guess I would say a general statement on the 
link between drug trafficking and terrorism does exist. I do 
not necessarily see that to a great degree with the Mexican 
cartels, but other locations around the world where we see like 
in Afghanistan or in places like that.
    Mr. Duncan. Mr. Ambassador, I know you were not necessarily 
in the tri-border region, but in South America in your service 
there, the tri-border region, how much emphasis was put on that 
are during your time in South America and Chile, and also 
Colombia?
    Ambassador Brownfield. You may have left out the third one, 
where it probably has the greatest focus, and that would be 
Venezuela.
    Congressman, first I believe you are absolutely dead on 
right to be focused on Hezbollah as a potential threat.
    Second, if Hezbollah were to develop operational 
capabilities in the Western Hemisphere, that would be one real, 
major serious problem for the United States of America.
    Third, I believe as we look at Hezbollah we have to break 
the threat into two parts. One is kind of the fundraising 
possibilities that they have, and I actually think there is 
evidence of that in a number of countries in South American. 
The second part of the threat is operational capability.
    I at this stage do not see operational capability by 
Hezbollah in the Western Hemisphere. That said, I do not focus 
on this issue for a living. There are others who do that, and 
you would be far better advised to get an opinion from them 
than from the guy who does organized crime, drugs, rule of law 
and law enforcement.
    Mr. Duncan. Yes. Thank you very much.
    Ma'am, would you like to chime in on this issue at all?
    Ms. Silver. I think it is has been well covered by my 
colleagues.
    I think from the perspective of DHS, obviously we are 
constantly looking through our intelligence and analysis branch 
for those kinds of linkage and for any indication of those 
kinds of linkages. And we will continue to do so.
    Mr. Duncan. Thank you, Mr. Chairman.
    I yield back the balance.
    Mr. Mack. Thank you very much, Mr. Duncan.
    I now would like to recognize Mr. Rivera for 5 minutes for 
questions.
    Mr. Rivera. Thank you very much, Mr. Chairman. And thank 
you to all the witnesses for being here today.
    I want to try to hone in on this issue of Mexico and its 
ability to carry out primary responsibility in protecting its 
citizens, and also the impact that the diversification of 
criminal activity and criminal organizations in Mexico, what 
other types of criminal insurgencies against the state may be 
developing or whether they are making headway.
    I am wondering if perhaps all three of you could comment 
your thoughts on the drug cartels in Mexico and whether they 
have indeed diversified into a variety of illicit activities 
and what that comprised?
    Maybe we can start with Secretary Brownfield.
    Ambassador Brownfield. Sure, Congressman. And I will give 
you my answered filtered through not just my experience of the 
past year dealing directly with the Merida Initiative in 
Mexico, but the prior 3 years when I was in Colombia.
    As I suggested in an earlier answer, I believe what is 
happening in Mexico is the larger cartels are taking serious, 
they are breaking up to consider extent. There are now more 
organizations but small in nature, less national and nationwide 
in scope and more regionally focused. So whereas previously you 
would have had X number, maybe now you have three times X 
number, but each one of those organizations is smaller.
    Mr. Rivera. And would you agree as well that their illicit 
activities have moved beyond just drug trafficking?
    Ambassador Brownfield. First, I think they have expanded 
their drug trafficking in terms of what they are willing, able, 
and capable of doing. I could say it is no longer just cocaine 
if they can also make money out of methamphetamines, out of 
heroin, or out of other products they do. They can use the same 
networks, they can use the same people, they can use the same 
institutions, they can use the same logistic systems to move 
product. If they are moving it in a criminal enterprise, to a 
certain extent it does not matter what is in the truck, the 
plane, the boat or the backpack; if they can make money by 
moving it, they can and they will. And to that extent, I 
suppose my answer to your question would be yes. I do see some 
signs of diversification.
    Mr. Rivera. Administrator Benson, your thoughts on if there 
has been some diversity of illicit activities or an evolution 
of illicit activities?
    Mr. Benson. Yes, Congressman. We have seen the same 
evolution as well. I mean, they have transitioned over a period 
of time from marijuana traffickers to cocaine traffickers. They 
basically pushed their operations and the Colombians have 
receded over the last decade, two decades where now you have 
Mexican organized crime. I mean they are the wholesale 
distributors in the United States with methamphetamine, 
cocaine, marijuana, and heroin. But then also as we have 
impacted their leadership in Mexico, they have then diversified 
as well into other revenue streams; kidnapping, extortion and a 
number of other crimes as well.
    Mr. Rivera. Secretary Silver?
    Ms. Silver. Congressman, certainly we see the same, both 
the fragmentation and some of the diversification both across 
the narcotics spectrum and then we also have a significant 
concern about human trafficking and human smuggling and 
engagement in that on the part of some of the criminal 
organizations and we are focusing some significant energy on 
that as well.
    Mr. Rivera. Well, I would hope that if there is indeed this 
evolution or diversification of the illicit activities with 
respect to the drug cartels moving beyond just the drug 
trafficking even if the drug trafficking perhaps has moved to 
different forms of trafficking and different forms of drugs, 
then I think it is important as we go forward that we also look 
at diversifying our strategy as well. If it is not just drug 
trafficking, if it includes human trafficking and smuggling and 
other activities, then I think that is something that would 
perhaps concern many Members of Congress to make sure that the 
administration as we go through looking at the genesis of the 
Initiative and what was its primary responsibility at the 
beginning and what the threat was at the beginning of the 
Initiative, if that threat has indeed changed and if the 
illicit activity has diversified or evolved over the years, 
that we would make sure and focus in on that as well, and be 
responsive to the changing threats of the illicit activities.
    So, I will yield back my time, Mr. Chairman.
    Mr. Mack. Thank you very much, Mr. Rivera.
    I would now like to recognize Mr. Cuellar for 5 minutes for 
questions.
    Mr. Cuellar. Thank you very much, Mr. Chairman.
    I want to thank both of you all and the ranking members for 
allowing me to sit here.
    Assistant Secretary Brownfield, good seeing you again.
    For 175 years, the U.S. and Mexico have held strong 
relations, you know signing several treaties, sharing various 
membership in international organizations. We share a maritime 
border and a land border with them. Every day there is $1 
billion of trade between the U.S and Mexico.
    Would you agree that the current relationship between the 
U.S. and Mexico is at its strongest and most positive point 
that it has ever been in the last 175 years?
    Ambassador Brownfield. Congressman, as you know, you and I 
come from the state, and I would use exactly those words. I 
believe the bilateral relationship right now is unprecedented 
in terms of the willingness of both governments to work 
together in the face of a long history of complications.
    Mr. Cuellar. Would you agree that we should be working with 
our Mexican partners to bring them in closer, especially with 
all the examples that have been given them or should we be 
pushing them away by going into what names we ought to call 
them or the groups that are working there?
    Ambassador Brownfield. I would never offer an opinion 
direct or indirect on what other members of these two 
distinguished committees have suggested.
    I would say to you, as I said in my opening statement, that 
if we cannot reach basic agreement with the Government of 
Mexico, our efforts probably will not succeed. It has to be 
cooperative. They have to agree with what we are trying to do. 
If not, we are unlikely to succeed.
    Mr. Cuellar. And this is more for Mr. Benson.
    If drug cartels were designated as terrorist organizations, 
and consider that they are dealing in a couple of hundred 
cities in the U.S., how do we deal with U.S. citizens who 
purchase drugs from them? And if somebody purchased a bag of 
marijuana for personal consumption, will he be charged with 
aiding and abetting a terrorist? I am sure we will catch 
somebody because we send what, $25 billion or $30 billion of 
monies down to Mexico? I mean, would that be a possibility?
    Mr. Benson. Well, as I look at it, Congressman, from an 
organized crime standpoint, I believe our authorities, our 
Federal narcotic laws are sufficient to address the trafficking 
problem that exists now.
    Mr. Cuellar. You didn't answer my question. So I guess you 
are saying that we do not need to go into--and I am one of 
those that I believe in law enforcement. I've got three police 
officers in my family. When it comes to law enforcement, just 
as I like to listen to our generals in Iraq and Afghanistan, I 
want to listen to folks who are doing the day-to-day. So I 
certainly would agree with your assessment on that.
    Let me ask you a specific question. The U.S. and Mexico got 
into an Initiative, or whatever, that established multi-
national, multi-agency intelligent centers, and one has been 
established that is called the Regional Intelligence Operation 
Coordination.
    My understanding is that the U.S. Government designated one 
agency, which you might be familiar with, to take the lead on 
this and they designed a Mexican agency to take the lead on 
this. According to the Mexican agency on that fusion center, 
there's been about $10 million have been spent for equipping 
and staffing the U.S. participant agencies at this regional 
intelligence agency, which is good. But according to the 
Mexican agency where the plan Merida is supposed to be putting 
the money, they are saying that they still have not gotten any 
of that money. They are saying they have not been equipped, 
they have not been trained. And again, there are two sides to 
every story, but I am just saying what the Mexican Government 
who was designated to help establish this center, they are 
saying that they have not gotten any of that. That all the $10 
million has gone to equip the U.S. agencies, which again I am 
okay with but are we forgetting our Mexican partners on this?
    Mr. Benson. I think as we look at exchange of intelligence, 
Congressman, it is very robust as I mentioned earlier.
    Mr. Cuellar. Do not mean to interrupt you. I am not talking 
about exchange of information, how robust. I know we have the 
best relationship. Just answer my question: The money that has 
been there, around $10 million, $9 or $10 million, has any of 
that been spent to help equip the Mexicans who are training at 
the fusion center for the one that is operational now? Just say 
or no.
    Mr. Benson. I do not know exactly the monetary figure. I 
really could not answer that. I do not know the answer to that 
question.
    Mr. Cuellar. All right. Well, let me restate this a little 
bit, because my time is up. Is there any reason to doubt the 
Mexican agency that was given the lead just like the American 
agency, is there anything there that would question the 
statements that they made that you know of?
    Mr. Benson. I do not information to answer that, sir at 
this time.
    Mr. Cuellar. Okay. All right. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Mack. Thank you very much. We appreciate it.
    And if the witnesses do not mind, we would like to ask a 
few more questions and give the members an opportunity for 
another round and taking the Ambassador up on his offer.
    I would now recognize myself 5 minutes for questions.
    You know, I think this is an important hearing. And, you 
know it is interesting. So some of the take-aways right off the 
bat is that there is not a lot of disagreement in things like 
the evolution of the drug cartels, that the activities that the 
cartels are engaged in meet a definition by the CIA of 
activities that are insurgent activities.
    But I wanted to, before I get into that, I wanted 
Ambassador Brownfield, in answering some questions earlier you 
posed three questions to the committee that you would suggest 
asking. And the first one is, what would we get by using a 
label or the terminology designation? And I would say this: 
That with criminal insurgency it would allow us to develop a 
countersurgery strategy that pulls all U.S. resources together 
for a comprehensive and effective response to the reality on 
the ground and increase awareness in the U.S. of the threat of 
the threat we face. That's one.
    The second question: What are the domestic legal 
implications of this? And the answer to that is there are none.
    And third: What impact would the designation have on 
programs on the ground? And I think what my suggestion is is 
that this would simply be utilization of the good U.S./Mexico 
relations to simultaneously address the threat on all levels.
    So, I think for me, and I think for a lot of people, this 
isn't as much as saying that Merida has failed. There has been 
some successes in Merida that you cannot deny and that are good 
things. But as we look forward, if we continue to kind of make 
the determination not to label what is happening in Mexico as 
it is, it also hamstrings our ability to confront the 
challenges because we are not properly identifying what those 
are.
    Mr. Benson, in your written testimony you talked about the 
evolution and some of the cartel's activities here in the 
United States. Would it not be helpful if the Treasury 
Department, all of the agencies, a whole of government 
approach, do you not think that would be helpful in completing 
your task?
    Mr. Benson. Chairman, we do that now. We leverage every 
department in the U.S. Government across a number of different 
agencies as we target their leadership here in the United 
States and in other countries. So, as we look at their money 
flow, for example, as we look at their movement of drug loads 
back and forth across the border, their movement into countries 
it is across many different department and agencies where we're 
impacting those organizations.
    Mr. Mack. So the cooperations there, you do not need 
anymore help. You have got everything you need?
    Mr. Benson. Well, I think the authorities that we have are 
sufficient to tackle and battle Mexican organized crime.
    Mr. Mack. Right, but how about to battle an insurgency?
    Mr. Benson. As I said, Chairman, I believe our Title 21 
authorities that we have, our Federal narcotics statutes are 
sufficient to target the cartels and their leadership.
    Mr. Mack. And I think this gets back to the point of the 
definition and why it is important to define what it is that we 
are challenging. I mean, most people recognize that the 
cartels' activity has gotten worse, that they are using every 
tool available to displace government. I mean, they are 
offering health care and other things to the citizens in the 
Mexico to try to gain favor. And so if you just want to go 
after it as a drug enforcement policy, then I would say ``Okay, 
you have the support you need from some of these other 
departments.'' But if we describe what is happening as it is, 
as an insurgency, there are a lot of other tools in the toolbox 
to be used and we cannot continue to sit back and watch the 
growth of these cartels and their criminal insurgent activities 
in Mexico because it put not only the people of the United 
States at risk, our freedom, security and prosperity, but also 
the people of Mexico, their freedom, security and prosperity.
    My time has expired.
    I would now recognize Mr. Engel for 5 minutes for 
questions.
    Mr. Engel. Thank you. Thank you, Mr. Chairman.
    I want to just talk about Merida. But before, I just want 
to comment on something Mr. Duncan said about Hezbollah. I 
think it would be good for us to, perhaps, get a briefing down 
the line about it. There is a flight, a plane, that has been 
going from Iran to Syria to Venezuela and back every week. We 
do not know who is on it. We do not know what is on it. But you 
can believe that it has some Hezbollah connection to it. So I 
think that was a good thing that you raised it and I think we 
should pursue that more.
    I want to talk about Merida. We talked about it initially, 
and I wanted to just talk about it. When we announced the 
Initiative in October 2007, we were told that it would be a 3-
year program. And last year we had the announcement of beyond 
Merida and continued funding to the FY 2011/2012 budget. So it 
appears that Merida is here to stay, at least for the near 
future.
    How long does the administration plan for the Merida 
Initiative funding to continue? Should it continue for the 
foreseeable future or should we start thinking about phasing it 
out and maybe doing something new?
    Ambassador?
    Ambassador Brownfield. Congressman, that is a perfectly 
legitimate question. You have every right to grill us on this 
question every time we come before you.
    My answer once again is filtered through my experience in 
Colombia, another example of a program where we set out saying 
it is a 5-year program; we are now wrapping year 12 of the 
program. But, it is down to a level, it is now about 25 percent 
of where we were when we started it in the year 2000. That does 
not strike me as an incoherent way of approaching the Mexican 
challenge.
    The simple and simplistic answer to your question is we are 
going to deal with the realities on the ground that are 
presented and we are not going to ask the American people to 
subject their own security to an artificial timeline and time 
table. But it should be realistic for you to say to someone 
like to me ``I expect to see a downward glide path. I expect 
you to have that program at a long term sustainable level in a 
finite period of time and to force me to give you some sort of 
estimate as to what that finite period of time would be.''
    If you were to really twist my arm really hard----
    Mr. Engel. I would never do that.
    Ambassador Brownfield [continuing]. I would say that you 
were generous with us for 3 years. We are now into the fourth 
year. You should expect and you are seeing a reduction in the 
amount of resources and funding that is being put into the 
Merida Initiative. You should expect that to continue for a 
period of time until we mutually agree that we are at a 
sustainable level. That is the best answer I can give you.
    Mr. Engel. Okay. That is fine.
    Let me ask you some specifics about Merida. The majority of 
the police in Mexico are at the local and state level. But 
funding from Merida goes mostly to the military and to Federal 
security units. We know that corruption at the local and state 
levels in Mexico is very high. So it is understandable, I 
think, that President Calderon has turned to the Federal police 
and the military. On the other hand, most crime takes place at 
the local and the state levels and those police will eventually 
need to be professionalized.
    So, can you tell me how would you characterize efforts 
under Merida to assist local and state institutions? And how 
would you assess the progress that Mexico has made in 
implementing police reform at the Federal level? And at what 
point do you think that the government might be able to 
disengage the military from its present role in domestic 
security?
    Ambassador Brownfield. Thank you, Congressman, I think that 
is a brilliant question because it leads right into what I call 
the transition that we are trying to do right now in the Merida 
Initiative.
    You are quite correct. The first 3 years were focused on 
the Federal institutions. Our objectives that we set for 
ourselves this year and next year is to pivot from the Federal 
institutions to the state and municipal institutions. The way 
we would hope to do it in absolute and complete agreement with 
the Federal Government of Mexico which controls and decides 
everything that we do in Mexico by way of support and 
assistance is to focus initially on three northern states of 
Mexico; Tamaulipas, Nuevo Leon and Chihuahua, which just 
happened to comprise much of our southwestern border as well. 
Focus on their state and municipal police, follow-up on the 
Mexican Government's own system of creating what they call 
``model police units,'' which is units of about 422 police 
officers from each of the 32 states, trained to a common 
standard, equipped to a common standard with vehicles that are 
of a common standard so that the Federal Government knows 
exactly what it is working with if this unit deploys. And train 
up enough of them to be able to address these issues.
    When, Congressman, the police and law enforcement are able 
to do their job, then I predict we see less military involved 
in law enforcement which in any country in the world, including 
our own, is not the mission that they are trained or equipped 
for.
    Mr. Engel. Thank you.
    Thank you, Mr. Chairman.
    Mr. Mack. Thank you very much, Mr. Engel.
    And Mr. Mr. McCaul is recognized for 5 minutes for 
questions.
    Mr. McCaul. And thank you, Mr. Chairman.
    When the chairman and I were down in Mexico City we saw 
exactly what you were talking about. I think President Calderon 
believes there is sort of a turning point, which was 
encouraging. I am not sure if that was reality or not. But his 
goal was to replace his military with the national police 
force, which makes sense. And I think his people look at the 
military cracking down their own country.
    He also, there is a high level of trust with the national 
police and they are all polygraphed.
    I wanted to bring up another--we have talked about this, 
Ambassador, but when we were down in Colombia, President 
Santos, he talked about his special forces trained by our guys, 
almost just as good as our guys, assisting Mexico and was very 
willing to assist in anyway that he could. And we took that 
message to President Calderon, and he was very interested. And 
I understand they are providing some training in Mexico. But 
could you just elaborate on that?
    To me, you know a lot of people say why do we not put our 
military down there. You and I know with the sovereignty 
issues, we cannot go down there. But I think the Colombian 
special forces can assimilate better from a cultural 
standpoint. And it was an intriguing idea I think that we heard 
on that trip that we thought could provide some assistance.
    Ambassador Brownfield. Mr. Chairman, I not only think it is 
an intriguing, I think it is an excellent idea. It probably 
would not surprise you to learn that I am a great fan and 
admirer of what the Colombian people, their government, and 
their institutions have accomplished over the last 11 or 12 
years. I think they are now quite capable of exporting some of 
those capabilities through training and support elsewhere in 
the region. I think it is a net positive for the United States 
of America to see Colombia engage in this effort together.
    I think it is, among other things, an excellent return for 
our investment of $8.5 billion or more in support of Colombia 
over the last 11 going on 12 years.
    I think you are absolutely correct. The Colombians have 
reached a level where I would argue they have capabilities that 
almost no other law enforcement or military institution has 
anywhere in the world. And in some issues, I would even stand 
them up with our own armed forces. I believe in jungle 
operations, for example, that the Colombians may well at this 
stage be the very best in the world.
    They can make much of this training cheaper. They can do it 
without, shall we say, the historical baggage that we bring to 
the U.S./Mexico relationship. They can do it in a common 
language. They can do it where they are literally sharing real 
time and real world experience saying ``This is what we did 
when we were taking down the Medellin and Cali Cartels. This is 
not educational. This is not academic. I am the guy who did it, 
and this is how we did it.''
    I think it is excellent value. And may I tell you that I, 
like you, whenever I am in conservation with either of the two 
governments, I am trying to encourage this sort of exchange.
    Mr. McCaul. I think, I mean certainly from Colombia's 
standpoint, they are very willing to partner. And I think 
Calderon was very interested in the idea. I think we got his 
attention on that. And I think that that is something we should 
a great take-away from the sharing and a positive thing, I 
think we all can agree on that we can move forward with that in 
mind.
    But I do want to clear up just a couple of things. Usually 
Henry Cuellar and I are on the same, and we are best of 
friends. You know, in Colombia when you have the foreign 
terrorist designation with the FARC, were you ever aware of any 
casual drug users that were prosecuted?
    Ambassador Brownfield. No, not that I am aware. I mean, it 
could well be there as in here, you know you got a charge sheet 
of 11 charges and you add on drug use just in case you lose the 
other 11. But other than that, you are asking if someone was 
prosecuted solely for that purpose. And, obviously the answer 
is----
    Mr. McCaul. Because I think that has been misrepresented by 
many, and that is not the way it works. But I like the idea, 
you know the Kingpin statute, they talk about that a lot, and 
that really goes after the head of the organization, whereas 
the FTO would go after the body of the organization in a far 
greater jurisdiction with heavier penalties. I think I am 
diplomatic. I know this one is not a diplomatic issue. At times 
with the Ambassador, we have had long conversations about this. 
But I do think it would provide greater authorities to go after 
these very dangerous cartels.
    And just finally, I mean we did not have any problems with 
working with Colombia when we had this designation, did we?
    Ambassador Brownfield. Not that I'm aware of. Though, to be 
honest and to be fair to the other side, Mr. Chairman, and I do 
not want to have an argument with you on this because I believe 
we are trying to accomplish exactly the same thing.
    Mr. McCaul. And I agree.
    Ambassador Brownfield. But I would remind you in Colombia 
we never put the Medellin or the Cali Cartel on the FTO list. 
And I assume there is a reason for that as well. So, I think 
this is worth more conversation, and I will leave it at that.
    Mr. McCaul. And it certainly has been a provocative issue.
    And thank you for your testimony.
    I yield back.
    Mr. Mack. Thank you very much, Mr. McCaul.
    And Mr. Duncan is recognized for 5 minutes for questions.
    Mr. Duncan. Thank you, Mr. Chairman.
    And, guys, this might be the last question of the day, so I 
appreciate you bearing with us.
    Mr. Benson, as Special Agent in charge of Atlanta's DEA you 
were reported as saying that the Mexican drug cartels were able 
to blend right in and establish Metro Atlanta as that strategic 
trans-shipment point. So my question is how real is the threat 
of these cartels in American cities, and what other cities are 
the Mexico drug cartels operating out of?
    Mr. Benson. Well, Congressman, it is very real. As you 
know, Atlanta is the hub for business in the southeast. And the 
Mexican cartels recognized that for a lot of the same reason. I 
mean, you go from the southwest border to Atlanta in about 
1,100 miles, a 15-hour trip. And then from there we would see 
those cartels then push up loads of cocaine, for example, all 
the way up the eastern seaboard. And then they would also use 
strategic trans-shipment hubs in Atlanta, Dallas and Los 
Angeles, and many other places, that then collect money and 
then push that back down to cartel leadership.
    So they have strategically identified locations like 
Atlanta because it is a good business model for them.
    Mr. Duncan. Certainly it is a good business model for 
companies like DHL and FedEx and others where they use hubs to 
distribute certain things. And if we know that, though, if we 
know they're using Atlanta and Dallas and Phoenix and some 
those areas, would that not make it easier to crack down on 
them?
    Mr. Benson. Yes, it does. And we have hit them in a hard 
way in places like Atlanta and some of their trans-shipment 
locations. And what we have seen as we hit them in a place like 
Atlanta, they then will adjust and make tactical changes in the 
way they do business. So it is just a matter of us keeping on 
top of them as they make their adjustments to our enforcement 
forces.
    Mr. Duncan. Just one other quick question about 
methamphetamine. So it is cheaply made, but is it cost 
effective from Mexico and for a drug cartel to bring meth into 
the U.S. versus having it manufactured and cooked here?
    Mr. Benson. We see a great deal of methamphetamine on the 
streets of the United States today. And most of it is produced 
there. They do produce it, it is inexpensive and they bring up 
very large amounts of, for example, crystallized 
methamphetamine, high purity, that they push out into our 
streets.
    So, I still believe that we will see Mexican organizations 
supplying the lion's share of methamphetamine to our U.S. 
market. We will also see those smaller lab operations that 
support either individual habit or those of a few. But I 
believe Mexican organizations will remain the primary supply 
for methamphetamine in the U.S. market.
    Mr. Duncan. Is it easier for them to get the Sudafed and 
other ingredients through Mexican channels since we have 
thwarted their efforts of over-the-counter products here?
    Mr. Benson. Well, they have instituted and they do have 
some very good chemical control laws in Mexico now. But we have 
seen those lab operators adjust their manufacturing techniques 
to use other methods to produce methamphetamine. And I believe 
we will continue to see that.
    Mr. Duncan. Thank you.
    I do not have any further questions, Mr. Chairman.
    I yield back the balance of the time.
    Mr. Mack. Thank you very much, Mr. Duncan.
    Well, this concludes the hearing.
    I want to thank the staffs on both the Majority and the 
Minority for both the two subcommittees for your hard work in 
this.
    I also want to thank the members who participated today.
    And most importantly, I want to thank Ambassador Brownfield 
and Mr. Benson and Ms. Silver for your time and sharing with us 
your thoughts on what I think is a very important topic.
    So with that, the subcommittee is adjourned.
    [Whereupon, at 4:26 p.m., the subcommittees were 
adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


               <F-dash>\\<careof><Rx><brit-pound>t<box>s\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


  <F-dash>\\a<star><loz><ellipse><ellipse>stat<box><acctof><box><Rx>t\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



 <F-dash>\\a<star><loz><ellipse><ellipse><F-dash><func.-of><Register>\

   Material submitted for the record by the Honorable Connie Mack, a 
  Representative in Congress from the State of Florida, and chairman, 
                 Subcommittee on the Western Hemisphere
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


  <F-dash>\\<star><Copyright>a<brit-pound><script-l><ellipse><ellipse>
                     <F-dash><func.-of><Register>\

Material submitted for the record by the Honorable Michael T. McCaul, a 
           Representative in Congress from the State of Texas
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
